<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-145]
[From the U.S. Government Publishing Office]



                                 ______

                                                        S. Hrg. 115-145

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.govinfo.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-494 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 5, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               LEGISLATION

Text of S. 826, the Wildlife Innovation and Longevity Driver Act.     3
    Text of amendments offered by:
        Senator Whitehouse.......................................    50
        Senator Booker...........................................    52
Text of S. 518, the Small and Rural Community Clean Water 
  Technical Assistance Act.......................................    62
    Text of Amendment No. 1 offered by Senator Carper............    67
Text of S. 692, the Water Infrastructure Flexibility Act.........    71
    Text of Amendment No. 1 offered by Senator Carper............    88
Text of S. 675, the Long Island Sound Restoration and Stewardship 
  Act............................................................    91

 
                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, APRIL 5, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Whitehouse, Gillibrand, Booker, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    We are here to consider the following legislation: S. 826, 
the Wildlife Innovation and Longevity Driver Act, with the 
acronym WILD; S. 518, the Small and Rural Community Clean Water 
Technical Assistance Act; S. 692, the Water Infrastructure 
Flexibility Act of 2017; and S. 675, the Long Island Sound 
Restoration and Stewardship Act.
    Senator Carper and I will give our opening statements. I 
will call up each bill for amendment. After we vote to report 
the bills to the Senate, I will recognize other members for any 
statements that they may wish to make on the bills or 
amendments, and I will stay until everyone has had a chance to 
make any statement they would like.
    The Wildlife Innovation and Longevity Driver, or the WILD 
Act, is bipartisan legislation introduced along with Senators 
Carper, Inhofe, Booker, Boozman, and Whitehouse, designed to 
promote new innovative solutions to better battle and manage 
invasive species, to conserve wildlife, and to limit illegal 
poaching.
    Wyoming grapples with many of these challenges that 
innovators can help solve; so do other States and other 
nations. America's innovators are developing cutting edge 
technologies to help us more effectively fight poaching, better 
manage wildlife, and control invasive species.
    The WILD Act incentivizes their contributions by 
establishing four separate cash prizes for technological 
innovation in these four categories: prevention of wildlife 
poaching and trafficking, promotion of wildlife conservation, 
management of invasive species, and the protection of 
endangered species.
    The WILD Act protects water and wildlife by requiring 
specified Federal agencies to plan and carry out activities on 
land and water that they directly manage to control and manage 
invasive species. It reauthorizes the Partners for Fish and 
Wildlife Program, which provides technological and financial 
assistance to private landowners to improve fish and wildlife 
habitat. It also reauthorizes the African Elephant Conservation 
Act of 1988, the Asian Elephant Conservation Act of 1997, the 
Rhinoceros and Tiger Conservation Act of 1994, the Great Ape 
Conservation Act of 2000, and the Marine Turtle Conservation 
Act of 2004.
    The business meeting also includes consideration of three 
bills that will address issues under the Clean Water Act. S. 
518, 692, and 675 are sponsored by our Committee colleagues, 
and they all passed the Committee with bipartisan support last 
year.
    I now turn to Ranking Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I have a very long statement that I won't 
give until after we have reported the legislation out.
    It has been a good process, Mr. Chairman. I want to thank 
you and your staff, and all of our colleagues and the members 
of your staffs as well. You have heard me talk about Mike 
Enzi's 80/20 rule, why was he so successful, Ted Kennedy 
getting so much done when they led the HELP Committee together. 
They always said the 80/20 rule, they focused on 80 percent of 
the stuff they agreed on. The 20 percent they didn't agree on, 
they said they would come back and pick it up some other time.
    That is exactly what we are doing here in the first couple 
of months of this new Congress, and I applaud the Chairman, and 
frankly, everybody around the dais.
    The other thing I would say in Delaware we practice 
something called the three Cs. We used to have a congressional 
delegation that was made up of Coons, Carney, Carper. We called 
that the three Cs. But the other three Cs that we embrace in 
Delaware are communicate, compromise, collaborate. And again, 
everything that you see in every one of these four pieces of 
important legislation reflects the commitment to communicating, 
compromising, and collaborating.
    The last thing I would say--this is just a little tongue in 
cheek here--but the WILD Act--I love this--Wildlife Innovation 
and Longevity Driver. Some of you know I love music, and there 
was an early song in my youth, Wild Thing, by The Troggs. So 
there is a shout out to The Troggs far away in England, 
wherever they are, to let them know that they are still 
remembered and embodied in this legislation, the spirit of this 
legislation.
    With that, I will hold the rest of my comments.
    Senator Barrasso. Well, we will try to come up with 
legislation that we will name Troggs for our next Committee. 
Thank you.
    Well, thank you, Senator Carper.
    To begin, I will call up Senate Bill 826, the Wildlife 
Innovation and Longevity Driver Act. Senator Carper and I have 
agreed that this text, which was sent to all of the offices 
yesterday, replaces the text that was circulated with notice 
last Friday.
    [The text of S. 826 follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
    Senator Barrasso. Senator Whitehouse and Booker have both 
filed amendments on this bill. I ask unanimous consent that 
Whitehouse No. 1 and Booker No. 1 be revised to reflect changes 
that we have agreed to and revised amendments, which are before 
the members, they add consideration of coastal areas to Title 
2, they create an additional prize for non-lethal wildlife 
control methods in Title 4, and they make clarifying changes to 
the bill.
    [The text of the amendments offered by Senator Whitehouse 
and Senator Booker follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Senator Barrasso. I am pleased to accept these amendments, 
as revised, and move to adopt them en bloc. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. Revised Whitehouse No. 1 and revised Booker No. 1 are 
agreed to.
    Any other Senator seek recognition to offer additional 
amendments to this specific bill?
    [No audible response.]
    Senator Barrasso. Seeing no other amendments, I ask 
unanimous consent that the amendments we just agreed to be 
considered incorporated into the underlying text of the WILD 
Act and that the revised text be considered an amendment in the 
nature of a substitute.
    If there is no objection, I now move to adopt the 
substitute amendment of S. 826 and favorably report 826, as 
amended. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. Those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The legislation will be reported favorably to the 
Senate.
    Next is the Small and Rural Community Clean Water Technical 
Assistance Act, S. 518, that I now call up.
    [The text of S. 518 follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
  
    
    Senator Barrasso. We will consider Carper No. 1 Amendment, 
which adds technical assistance for medium sized communities to 
the bill.
    [The text of Amendment No. 1 offered by Senator Carper 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Barrasso. I am pleased to accept this amendment and 
move to adopt it. Is there a second?
    Senator Wicker. Second.
    Senator Barrasso. In favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The agreement is agreed to.
    There are no other amendments filed. I ask unanimous 
consent the amendment we have just agreed to be considered 
incorporated into the underlying text of S. 518 and that the 
revised text be considered an amendment in the nature of a 
substitute. Without objection.
    Now move to adopt the substitute amendment, S. 518, 
favorably reported, as amended. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All in favor please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The legislation is favorably reported.
    Next is S. 692, the Water Infrastructure Flexibility Act of 
2017. Now call up S. 692.
    [The text of S. 692 follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Senator Barrasso. We will consider Carper Amendment No. 1, 
which makes several technical and clarifying changes.
    [The text of Amendment No. 1 offered by Senator Carper 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Barrasso. I am pleased to accept this amendment and 
move to adopt it. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The amendment is agreed to. No other amendments have 
been filed on that bill.
    Ask now unanimous consent that the amendment we just agreed 
to be considered incorporated into the underlying text of S. 
692 and that the revised text be considered an amendment in the 
nature of a substitute. Without objection.
    Now move to adopt the substitute amendment to S. 692 
favorably reported, as amended. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The legislation is favorably reported.
    Next call up S. 675, the Long Island Sound Restoration and 
Stewardship Act.
    [The text of S. 675 follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
   
    
    Senator Barrasso. No amendments have been filed. I move to 
favorably report S. 675. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. The legislation is favorably reported.
    The voting part of the business meeting is finished. I know 
some of you have additional requirements on your time, but I 
appreciate all of you for being here today.
    I am happy to stay and recognize any member who wishes to 
make a statement.
    Senator Carper. Mr. Chairman, before everybody leaves, 
could I just say one other thing?
    You have all seen on television the commercials when they 
advertise pharmaceuticals, and they tell you during the 
advertisement all the ways it will kill you, make your hair 
fall out, your teeth fall out, but they say it very, very fast, 
and it is hard to understand. I just want to say I think our 
Chairman has a second career, given the speed with which we 
moved through our agenda today.
    [Laughter.]
    Senator Carper. Way to go.
    Senator Whitehouse. We definitely set a speed record today.
    Senator Barrasso. Would any member like to be recognized to 
make a statement about any of the bills?
    Senator Carper.
    Senator Carper. Thanks so much.
    Again, congratulations to everybody, Mr. Chairman, to you 
and to everyone who was part of putting all this together; 
those who authored the legislation, who helped us perfect it. 
We want to just thank everybody, particularly our staffs.
    With regards to the three water bills we are considering 
today, two of them are extremely important tools in helping 
communities across our country comply with the Clean Water Act. 
As you know, small and rural communities--we talked about this 
in one of our hearings--but communities often have a difficult 
time providing sanitation and clean water in compliance with 
Federal regulations. While these communities have fewer 
financial resources to spend on improving their wastewater 
systems, they are regulated to the exact same standards as 
large metropolitan water systems.
    Today we just considered S. 675, the Long Island Sound 
Restoration and Stewardship Act, which is of real importance to 
New York and Connecticut, and about which I am sure Senator 
Gillibrand will speak momentarily. Her bill has been reported 
out of our Committee I think any number of times, and hopefully 
this year, Kirsten, we will get it across the finish line.
    Last, we considered the Wildlife Innovation and Longevity 
Driver Act, or WILD, Wild Thing. I am pleased that our Chairman 
and I--with a big assist from our respective staffs--were able 
to come up with an agreement to address concerns to Title 2 of 
the bill, which deals with management of invasive species on 
Federal lands. And I am very pleased to join with my colleagues 
in this expression of support for the Partners for Fish and 
Wildlife Act, which protects, enhances, and restores important 
fish and wildlife habitats on private lands through 
partnerships.
    The voluntary cost share programs offer a chance to regain 
some of America's most important natural resources and builds 
on the strengths and interests of committed individuals and 
organizations to accomplish shared conservation goals. It is, 
in essence, a critical tool to demonstrate that the solution to 
all of our fish and wildlife challenges rests in our collective 
efforts. That includes the on the ground knowledge and 
commitment of landowners and the technical capacities and 
financial resources of the Federal Government.
    I am heartened, too, by the inclusion of reauthorizations 
of the multinational species conservation funds. Without the 
elephants, the rhinos, tigers, marine turtles, and other iconic 
species protected by these laws, our world is much less home.
    And I appreciate your vision, Mr. Chairman, for creating 
the Theodore Roosevelt Genius Prizes for prevention of wildlife 
poaching and trafficking, for promotion of wildlife 
conservation, for management of invasive species, and for 
protection of our endangered species. These prizes are the 
perfect melding of pressing needs and a deep well of American 
ingenuity. They are a fitting complement to our recent hearing 
on innovation in wildlife management and invasive species 
control. While we learned great things are happening, there is 
a lot more that we can and need to do.
    Finally, Title II of this Act takes direct and much needed 
aim at stemming the introduction and spread of invasive species 
on Federal lands. I agree that in many cases the threat is 
great and the need for action is immediate. We are struggling 
to find a best way to accommodate the need for action without 
undue burden or delay, and I appreciate your willingness, Mr. 
Chairman, and the work of your staff to help us find the best 
way to meet those objectives.
    I think the record for the most amendments that are offered 
and attached to these bills belongs to the senator from New 
Jersey. Mr. Booker, you have outdone yourself with your work on 
at least one of these pieces of legislation. I especially 
commend you.
    Senator Gillibrand, my hope is the legislation that you 
offered again and again we can actually get done this year.
    Thank you.
    Senator Booker. Mr. Chairman, may I?
    Senator Barrasso. Yes, Senator Booker.
    Senator Booker. I just want to commend the two of you. I 
just really am grateful to be serving on this Committee and to 
have two leaders who really are committed to finding a 
bipartisan path forward. Both of you are just gentlemen I 
respect a lot personally because of that spirit that you have, 
especially in this time that people criticize Washington. I 
think you are counters to what many people believe goes on down 
here, and I thank you.
    I want to thank you for allowing me to contribute to this 
bill in a substantive way. I am just happy that I was able to 
put two amendments on the WILD Act, despite the painful 
allusion to a song from decades ago.
    [Laughter.]
    Senator Carper. Your amendments have made the Wild Thing a 
wilder thing.
    Senator Booker. Thank you very much. Indeed, your 
cooperation has made my heart sing.
    [Laughter.]
    Senator Whitehouse. That makes everything groovy.
    Senator Booker. But I do want to say I am very excited that 
there is an XPRIZE. Just think about this. There is focus on 
finding non-lethal solutions to human wildlife conflicts, and 
that is something that really calls to the ingenuity of all 
people into thinking about ways that we can coexist. I really 
have a lot of frustration that we had this knee jerk reaction 
when there is a conflict between wildlife and human life, that 
we go right to the killing of the wildlife. We have to change 
our mindset as a country, I think, to start looking at ways to 
coexist with our fellow animals, live in harmony when that is 
possible, and I hope that this bill as a whole will move us in 
that direction.
    So, again, thank you to my two colleagues, and if I can 
say, friends. This is another testimony to your leadership, and 
I think to the collaboration of this Committee.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to echo my good friend from New Jersey's comments on 
the leadership here. You know, this Committee actually gets a 
lot done. If you look at the last Congress, I think we were 
really producing a lot of legislation, a lot of bipartisan 
legislation.
    The issue of water and sewer for small communities is an 
important one to a lot of our constituents. My constituents 
back home in Alaska, we have over 30 communities--30--that have 
no water and sewer. None. Zero. Zilch. My constituents, 
unfortunately, have very high rates of disease in those 
communities, so we are going to keep working on that and 
appreciate it.
    I also want to commend everybody for the work on the WILD 
Act. Conservation, I think, is another area of strong 
bipartisan support.
    I do want to mention, Mr. Chairman and the Ranking Member, 
we held a hearing, you might remember a field hearing out in 
Alaska on an issue that is kind of related, but there are ivory 
bans all over the world with regard to elephant ivory and rhino 
ivory, which I think we are all supportive of. Some of those 
bans were catching very legal trade in other forms of ivory 
domestically that the Obama administration, Fish and Wildlife 
Service was supportive of, different environmental groups have 
been support of, and I want to work with this Committee. I have 
already talked to Senator Booker about ways to address this 
issue to make sure that communities in my State and other 
places don't get caught up in a way that really impacts their 
economy; to be honest, some of the most economically 
disadvantaged people in the country. So I just want to mention 
that I want to work with the Committee on and hopefully get 
some bipartisan resolution on this after the field hearing we 
had last year on this issue.
    Thank you very much.
    Senator Barrasso. Thank you very much, Senator Sullivan.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Chairman Barrasso, Ranking 
Member Carper. I am very grateful for your leadership and the 
great work we are doing here. Thank you for the work with Long 
Island Sound Restoration and Stewardship Act that is coming out 
of the Committee today. I really appreciate it.
    The legislation I reintroduced this Congress, along with 
Senators Blumenthal, Schumer, and Murphy, is the same that we 
unanimously passed in this Committee in previous Congresses. It 
has strong bipartisan support from the New York and Connecticut 
delegations of the House, as well as the local communities in 
the Long Island watershed.
    The Long Island Sound contributes up to $37 billion to the 
regional economy each year and has been named an estuary of 
national significance. To protect this resource, my legislation 
would authorize our Federal commitment through fiscal year 2023 
to help our communities in New York and Connecticut restore and 
maintain the health of Long Island Sound and its ecosystem.
    The programs authorized by this legislation are cost 
effective. For every $1 in Federal funds appropriated to the 
Long Island Sound program, an additional $87 are leveraged from 
other sources, multiplying our Federal investment nearly 9 
times.
    Federal funding has already helped us significantly 
reduce--by millions of pounds--the amount of nitrogen entering 
the Sound from sewage treatment plants. We have protected 
thousands of acres of habitat land. But there is still a lot of 
work to do to reduce pollution and protect vital ecosystems in 
and around the Sound for millions of my constituents who live 
and work near it and want to enjoy the natural resource for 
recreation.
    I am very grateful that you have supported my bill.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Whitehouse.
    Senator Whitehouse. Chairman, thank you very much for 
mending the WILD bill to include oceans and coasts. For many of 
us who are from ocean and coastal States, that part of God's 
good earth has been rather overlooked compared to upland and 
freshwater in Congress, and it is nice to see it on an even 
playing field here in this legislation. I appreciate it very 
much.
    Also, I know Senator Sullivan had to go, but I wanted to 
express my appreciation to him. We announced bipartisan 
legislation on marine plastic debris that came from a hearing 
that he chaired in this Committee. It has very solid bipartisan 
sponsorship and the support of the Oceans Caucus, which is a 
very bipartisan organization. So I think we are seeing 
continued progress on oceans and coasts, and I appreciate that 
very much.
    I know that Wyoming doesn't have a lot of coasts, but you 
know, climate change is bringing those coasts closer to you 
every day.
    [Laughter.]
    Senator Barrasso. Thank you so much for your kind comments 
and elucidation.
    I appreciate the work of everybody on the Committee 
collaboratively to really get some of the things done that need 
to be done. So I appreciate your three Cs and mentioning Mike 
Enzi, who always says, you know, take 80 percent and the other 
20 percent we can come handle another day. We were able to do 
that, so I appreciate working with you, my good friend, on 
solving some things that need to be done and getting these 
bills advanced to the floor of the Senate.
    I do ask unanimous consent to enter a letter of support for 
the WILD Act from the Family Farm Alliance into the record. 
Without objection.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Barrasso. I ask unanimous consent staff have 
authority to make technical and conforming changes to each of 
the matters approved today.
    The business meeting is adjourned.
    [Whereupon, at 10:20 a.m. the Committee was adjourned.]

                                 [all]




</pre></body></html>
